APPENDIX

App. 1
DO NOT PUBLISH
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-11626
-----------------------------------------------------------------------

D.C. Docket No. 2:16-cv-00842-VEH
ANITA SMITH,
Plaintiff - Appellant,
versus
VESTAVIA HILLS BOARD OF EDUCATION,
Defendant - Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Alabama,
-----------------------------------------------------------------------

(November 5, 2019)
Before MARCUS, JULIE CARNES and KELLY,* Circuit Judges.
PER CURIAM:
Plaintiff-Appellant Anita Smith appeals from the
district court’s grant of summary judgment in favor of
Defendant-Appellee Vestavia Hills Board of Education
on her employment discrimination claims. Smith v.
* Honorable Paul J. Kelly, Jr., United States Circuit Judge
for the Tenth Circuit, sitting by designation.

App. 2
Vestavia Hills Bd. of Educ., No. 2:16-CV-842-VEH,
2018 WL 1408537 (N.D. Ala. 2018). Our jurisdiction to
review the judgment arises under 28 U.S.C. § 1291,
and we affirm.
I
Ms. Smith, an African American woman of approximately 52 years of age, was hired by the Vestavia Hills
Board of Education (the “Board”) prior to the start of
the 2013–2014 school year. In her role as secretary/
registrar at Vestavia Hills High School (“VHHS”), Ms.
Smith carried out administrative duties typical of an
office receptionist. Her assigned work hours were from
7:00 a.m. to 3:00 p.m. and, given the high visibility of
her desk in the school’s main office, it was imperative
that her station be continuously covered during these
hours. When Ms. Smith was not at her desk, a student
office aide or office employee needed to cover for her.
The Board renewed Ms. Smith’s contract for the
2014–2015 school year and hired Tim Loveless as the
new VHHS principal. At the start of the year, Mr. Loveless was informed that a number of staff members had
tardiness issues. After reviewing staff timecards, he
noticed that Ms. Smith had been consistently late to
work since her employment began. He continued monitoring her timecard, as well as the timecards of other
habitually tardy staff members, throughout the remainder of the school year. By April 2015, Ms. Smith’s
timecard showed that she had been late to work 87%
of the time during her two years of employment.

App. 3
In April 2015, Mr. Loveless completed his evaluation of Ms. Smith. He rated her overall performance as
“Meets or Exceeds Requirements,” but noted that her
punctuality needed improvement. Ms. Smith agreed
with his assessment yet, in the 13 days following her
evaluation, she was late 10 times. At the end of the
school year, Mr. Loveless recommended that the Board
not re-hire Ms. Smith. The Board subsequently voted
to terminate her employment.
Throughout the remainder of 2015 and into 2016,
Ms. Smith applied for a number of open positions
throughout the Vestavia Hills City School System. She
was not hired for any of the positions to which she applied.
Ms. Smith sued the Board in district court for racial discrimination, in violation of Title VII of the Civil
Rights Act of 1964, as amended (“Title VII”), 42 U.S.C.
§§ 2000e, et seq., 42 U.S.C. § 1981, and 42 U.S.C.
§ 1983; age discrimination, in violation of the Age Discrimination in Employment Act of 1967, 29 U.S.C.
§§ 621–34 (the “ADEA”); and retaliation, in violation of
Title VII, Section 1981, and the ADEA. Only the race
and age discrimination claims remain on appeal.
The district court granted summary judgment in
favor of the Board. As relevant on appeal, the court analyzed Ms. Smith’s race and age discrimination claims
under the burden-shifting framework set out in
McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973),
and made two specific findings. First, the court found
that Ms. Smith failed to present a prima facie case of

App. 4
racial discrimination as to her termination because
she did not provide proper comparators. Second, the
court determined that Ms. Smith could not fulfill her
McDonnell Douglas burden on her failure-to-hire claim
based on impermissible race and age discrimination.
The court stated that, even assuming Ms. Smith had
established the necessary presumption of discrimination, the Board properly rebutted that presumption
with race- and age-neutral rationales for its decision,
which Ms. Smith failed to show were pretextual. Accordingly, the district court found that Ms. Smith was
unable to show that there were genuine issues for trial
and granted summary judgment in the Board’s favor.
Ms. Smith appeals the district court’s decisions regarding (1) her termination from the VHHS position
based on race discrimination, and (2) the Board’s failure-to-hire her based on race and age discrimination.
She argues that the district court (a) misapplied summary judgment standards by resolving factual disputes and drawing inferences in favor of the Board, (b)
ignored evidence of disparate discipline given white
comparators who committed similar misconduct, and
(c) improperly relied on the McDonell Douglas framework because it was supplanted by the 1991 amendments to Title VII, specifically by the provision
applying to mixed motive cases, 42 U.S.C. § 2000e2(m).
We review the district court’s grant of summary
judgment de novo. Alvarez v. Royal Atl. Developers,
Inc., 610 F.3d 1253, 1263 (11th Cir. 2010). Evidence

App. 5
is construed in the light most favorable to the nonmoving party and, if no genuine issue of material fact
exists, then “the moving party is entitled to judgment
as a matter of law.” Id. at 1263–64. The district court’s
judgment may be affirmed for any reason supported by
the record. Lucas v. W.W. Grainger, Inc., 257 F.3d 1249,
1256 (11th Cir. 2001).
II
Ms. Smith alleges racial discrimination pertaining
to her termination under Title VII and Section 1981.
The legal elements of these two claims are identical.
Stallworth v. Shuler, 777 F.2d 1431, 1433 (11th Cir.
1985). To prove impermissible racial discrimination,
an employee must show that an adverse employment
action was related to an employer’s discriminatory animus toward the employee’s race. Stimpson v. City of
Tuscaloosa, 186 F.3d 1328, 1331 (11th Cir. 1999).
Discrimination may be established through either
direct or circumstantial evidence. Alvarez, 610 F.3d at
1264. At the summary judgment stage, single-motive
cases based on circumstantial evidence are primarily
evaluated under the McDonnell Douglas burden-shifting framework. Quigg v. Thomas Cty. Sch. Dist., 814
F.3d 1227, 1237 (11th Cir. 2016). This analysis first requires that the employee establish a prima facie case
of discrimination by showing that (1) she is a member
of a protected class; (2) she is qualified for the position;
(3) she was subjected to an adverse employment action;
(4) and the employer treated a similarly situated

App. 6
employee outside of the protected class more favorably.
Smith v. Lockheed-Martin Corp., 644 F.3d 1321, 1325
(11th Cir. 2011). The similarly situated employee is referred to as the “comparator.” Id. at 1326.
Once an employee establishes a prima facie case
of discrimination, the burden of production shifts to
the employer to articulate and produce evidence of a
legitimate, nondiscriminatory reason for the adverse
employment action. Alvarez, 610 F.3d at 1264. If the
employer is able to do so, the burden shifts back to the
employee to show that the proffered reason is actually
pretext for discrimination. Id.
Alternatively, an employee may succeed on a racial
discrimination claim under a mixed-motive theory if
she can show that “illegal bias . . . was a motivating
factor for an adverse employment action, even though
other factors also motivated the action.” Quigg, 814
F.3d at 1235 (quoting 42 U.S.C. § 2000e–2(m)). Mixedmotive claims are not evaluated under McDonnell
Douglas. Id. at 1237. Instead, the employee need only
show that the (1) employer took an adverse employment action against her, and (2) a protected characteristic was a motivating factor for that decision. Id. at
1239.
Here, the district court properly concluded that
Ms. Smith’s claims of racial discrimination pertaining
to her termination proceeded under a single-motive
theory, and thus correctly applied the McDonnell
Douglas framework. “Where . . . a[n employee] puts
forth only circumstantial evidence in support of [her]

App. 7
discrimination claims,” the McDonnell Douglas framework generally applies. Benjamin v. SNF Holding Co.,
602 Fed. Appx. 758, 762 (11th Cir. 2015).1 And while
circumstantial evidence may also be relevant under a
mixed-motive theory, a plaintiff cannot make only a
“passing reference to a mixed-motive theory” to sufficiently raise the issue. Keaton v. Cobb Cty., No. 08–
11220, 2009 WL 212097, at *10 (11th Cir. Jan. 30,
2009). The district court’s analysis was thus proper for
two reasons. First, Ms. Smith did not plead or prove a
mixed-motive case. She does not suggest that unlawful
bias, in addition to other factors, motivated the adverse
actions. Rather, she presents a pretext case and claims
that unlawful bias was the true reason for her termination. See Quigg, 814 F.3d at 1235 (differentiating between mixed-motive and single-motive cases). Second,
we agree with the Board that a single-motive case is not
transformed into a mixed-motive case merely because
the employer raises a legitimate, non-discriminatory
reason for its actions. Were the rule as Ms. Smith construed it, every case would be a mixed-motive case, and
the McDonnell Douglas framework would be irrelevant. Aplee. Br. at 26. Accordingly, we find that the district court correctly analyzed Ms. Smith’s case under
the single-motive, McDonnell Douglas framework.
We also find meritless Ms. Smith’s contentions
that the district court (1) misapplied summary judgment standards, and (2) improperly relied on the
1

Although not precedential, we find the reasoning of this
and the other unpublished opinions cited in this opinion to be instructive. See Fed. R. App. 32.1.

App. 8
McDonell Douglas framework in light of the 1991
amendments to Title VII. We agree with the Board that
the district court’s factual findings are supported by
the record, and that inferences arising from disputed
facts were construed in Ms. Smith’s favor. Moreover, we
have relied on the McDonnell Douglas framework to
evaluate single-motive employment discrimination
claims at the summary judgment stage for decades.
The 1991 amendments to Title VII did not do away
with the single/mixed motive distinction as Ms. Smith
claims and we reject her argument that the “motivating factor test” is the proper analytical framework.
Further, the district court properly held that Ms.
Smith failed to provide a proper comparator under
McDonnell Douglas. “[A] plaintiff asserting an intentional-discrimination claim under McDonnell Douglas
must demonstrate that she and her proffered comparators were ‘similarly situated in all material respects.’ ”
Lewis v. City of Union City, 918 F.3d 1213, 1224 (11th
Cir. 2019) [Lewis II] (en banc). Here, none of the comparators offered by Ms. Smith needed their desks covered at all times throughout the workday. But desk
coverage was a critical component of Ms. Smith’s job.
Her desk was in a central location in the main office,
and her job duties included handling all calls and office
visitors. It was so important that someone be at Ms.
Smith’s desk from 7:00 a.m. until 3:00 p.m. that another main office employee needed to fill in for her
when she was late to work or on lunch. As Ms. Smith
failed to provide a comparator whose role also required
continual desk coverage, and thus a comparator

App. 9
“similarly situated in all material respects,” the district court properly concluded that she failed to establish a prima facie case of racial discrimination under
McDonnell Douglas.2 Accordingly, summary judgment
in favor of the Board was appropriate.
III
Ms. Smith also alleged a failure-to-hire claim
based on race and age discrimination. Ms. Smith’s race
discrimination claim in the failure-to-hire context also
proceeds under Title VII and Section 1981. Her age discrimination claim proceeds under the ADEA, which
prohibits employment discrimination against individuals who are at least 40 years of age. 29 U.S.C. § 623(a).
The McDonnell Douglas burden-shifting framework applies to failure-to-hire claims where only circumstantial evidence of race or age discrimination is
alleged. Trask v. Sec’y., Dep’t of Veterans Affairs, 822
F.3d 1179, 1191 (11th Cir. 2016). To prove a prima facie
case in the failure-to-hire context, the plaintiff must
demonstrate that (1) she was a member of a protected
class; (2) she applied to and was qualified for an available position; (3) she was not hired; and (4) the position
remained open or was filled by another person outside
2

Likewise, we reject Ms. Smith’s argument that, pursuant
to Smith v. Lockheed-Martin Corp., 644 F.3d 1321 (11th Cir.
2011), she has nonetheless presented evidence of discrimination
sufficient to create a jury question. The circumstantial evidence
asserted here falls well short of painting a convincing mosaic of
discrimination that would allow a reasonable jury to infer intentional discrimination. See Smith, 644 F.3d at 1328.

App. 10
of her protected class. EEOC v. Joe’s Stone Crabs, Inc.,
296 F.3d 1265, 1273 (11th Cir. 2002).
While Ms. Smith made a prima facie showing of
race and age discrimination, she ultimately failed to
meet her burden under McDonnell Douglas. Once “a
prima facie case is established, the employer has the
burden to articulate a legitimate non-discriminatory
reason for the employment decision.” McCaslin v. Birmingham Museum of Art, 384 Fed. Appx. 871, 874
(11th Cir. 2010). To survive summary judgment, the
plaintiff must then “show that the proffered reason
was a pretext for discrimination.” Id. Here, Ms. Smith
failed to show that the Board’s reasons for hiring other
applicants over her were merely pretext for discrimination. At best, Ms. Smith brought forward evidence
that she was more qualified than other applicants but
this evidence alone is not sufficient to show that the
Board’s reasons for hiring other applicants were mere
pretext to mask race or age bias. See Vessels v. Atlanta
Indep. Sch. Sys., 408 F.3d 763, 771 (11th Cir. 2005). Accordingly, Ms. Smith failed to fulfill her shifted burden
under McDonnell Douglas and summary judgment in
the Board’s favor was appropriate.
IV
The district court did not err in granting summary
judgment in favor of the Board.
AFFIRMED.

App. 11
UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
-----------------------------------------------------------------------

No. 18-11626
-----------------------------------------------------------------------

District Court Docket No.
2:16-cv-00842-VEH
ANITA SMITH,
Plaintiff - Appellant,
versus
VESTAVIA HILLS BOARD OF EDUCATION,
Defendant - Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Alabama
-----------------------------------------------------------------------

JUDGMENT
It is hereby ordered, adjudged, and decreed that the
opinion issued on this date in this appeal is entered as
the judgment of this Court.
Entered: November 05, 2019
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

App. 12
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF ALABAMA
SOUTHERN DISTRICT
ANITA SMITH,
Plaintiff,
v.
VESTAVIA HILLS
BOARD OF EDUCATION,
Defendant.

)
)
)
) CIVIL ACTION NO.:
) 2:16-CV-842-VEH
)
)
)

MEMORANDUM OPINION
(Filed Mar. 21, 2018)
I.

INTRODUCTION

Plaintiff Anita Smith (“Plaintiff ” and/or “Smith”)
has sued her former employer, the Vestavia Hills Board
of Education (“Defendant,” “VHBE,” and/or the “Board”)
for race discrimination in violation of: Title VII of the
Civil Rights Act of 1964, 42 U.S.C. §§ 2000e through
2000e-17 (“Title VII”); 42 U.S.C. §§ 1981 and 1981(a)
(“Section 1981”); and 42 U.S.C. § 1983 (“Section 1983).
(Doc. 21, Count One). She also claims she was discriminated against based on her age, in violation of the Age
Discrimination in Employment Act of 1967, 29 U.S.C.
§§ 621-634 (the “ADEA”). (Count Two). Finally, she
claims that Defendant retaliated against her, in violation of Title VII, Section 1981, and the ADEA, after she
opposed the Defendant’s alleged discrimination
against her. (Count Three).

App. 13
This case is now before the Court on: Defendant’s
Motion for Summary Judgment (doc. 34); Plaintiff ’s
Motion To Strike Undisclosed Witnesses (doc. 53);
Plaintiff ’s Motion To Strike Declarations (doc. 54);
Plaintiff ’s Motion To Strike Court Document 55, Defendant’s Response in Opposition to Plaintiff ’s Objection and Motion To Strike (doc. 56); Defendant’s Motion
To Strike Plaintiff ’s Exhibit 2 Attached to Her Response in Opposition to Defendant’s Motion for Summary Judgment1 (doc. 60); Defendant’s Motion To
Strike Plaintiff ’s Exhibits 5, 9, 10 and 21 (doc. 62); Defendant’s Motion To Strike Plaintiff ’s Exhibit 16 (doc.
63); Defendant’s Motion To Strike Plaintiff ’s Citations
to Articles (doc. 64); and Defendant’s Motion To Strike
Portions of Plaintiff ’s Response Brief (doc. 65). The motions are fully briefed and are under submission. (See
docs. 55, 57, 58, 59, 66, 68, 70, 71, 72, 73, 74, 75, 76, 77,
78, 79, 80, 81, and 82). After careful review, and for the
reasons explained below, Defendant’s Motion for Summary Judgment is due to be GRANTED. Plaintiff ’s
and Defendant’s motions to strike are due to be
GRANTED and/or DENIED as set out herein.
II.

CHALLENGES TO THE RULE 56 FILINGS

Before the Court reaches the merits of Defendant’s
Motion for Summary Judgment, it must determine
what evidence and/or portions of briefs are due to be
1

All of Defendant’s motions to strike reference Plaintiff ’s evidence, citations, and/or argument in response to Defendant’s Motion for Summary Judgment. Accordingly, for the sake of brevity,
the Court will not continue to add this language.

App. 14
excluded. In order to make that determination, the
Court must first decide which pleadings will be considered. Thus, the Court turns first to Plaintiff ’s Motion
To Strike Court Document 55, Defendant’s Response in
Opposition to Plaintiff ’s Objection and Motion To
Strike. (Doc. 56).
This motion (doc. 56) seeks to strike Defendant’s
response in opposition to one of Plaintiff ’s motions to
strike. The basis for the motion is that it was untimely
under the Court’s briefing schedule. And it was. Nevertheless, the Court declines to exclude Defendant’s
response. Plaintiff has addressed the merits of Defendant’s response by filing a reply. (Doc. 66). Accordingly,
the Court cannot discern any prejudice suffered by
Plaintiff as a result of Defendant’s untimely response
brief.
Having decided what pleadings to allow, the Court
now turns to the parties’ multiple filings on alleged
briefing violations and evidentiary issues.2 Plaintiff
and Defendant both challenge significant portions of
the record presented by the opposing party. Plaintiff

2

Fortunately, another judge of this district has recently
dealt with many of the legal issues encompassed within the evidentiary arguments presented in these motions. Brandon v. GlaxoSmithKline, LLC, No. 7:15-cv-01804-RDP, 2017 WL 2876184
(July 6, 2017) (Proctor, J.) The Court has reviewed that well-written decision and finds it to be fully supported by the authorities
cited therein. Accordingly, the Court has copied verbatim portions
of that judge’s statement of those authorities, and then has applied those authorities to the issues raised by the parties in this
case.

App. 15
seeks to exclude the declarations3 of Dr. Mark Richardson, Dr. Tyler Burgess, Grace Hicks, and Dawn Skewes
because these individuals were not disclosed until after discovery had closed. (Doc. 53).4 Plaintiff also seeks
to exclude, as “sham declarations,” the declarations of
Tim Loveless and Sheila Phillips, and to exclude the
declaration of Grace Hicks for Defendant’s failure to
timely disclose her. (Doc. 54). Plaintiff also seeks to exclude certain portions of the declarations of Tim Loveless and of Grace Hicks as hearsay, unsupported
ultimate conclusions, and/or irrelevant. (Doc. 54). Defendant asks the Court to strike various exhibits submitted by Plaintiff in opposition to the Motion for
Summary Judgment. (Docs. 60, 61, 63, and 64). Defendant asserts that: Plaintiff ’s Exhibit 2 is irrelevant (doc.
60); portions of Plaintiff ’s Exhibits 5, 7, 9, 10 and 21
are improper summaries (doc. 61); four documents
within Plaintiff ’s Exhibit 16 have not been authenticated (doc. 63); and Plaintiff ’s citations to unauthenticated law review articles and websites should be
struck (doc. 64). Defendant also objects to the portions
of Plaintiff ’s brief in opposition to summary judgment
that refer to these unauthenticated law review articles
and websites, and objects to facts that are improperly
contained without citation to the evidentiary record in
Plaintiff ’s response to Defendant’s statement of
3

The parties refer to the “affidavits” which were submitted
as “declarations.” For ease of reference, and because it is a distinction without a difference, the Court follows their lead.
4
To the extent that Plaintiff is seeking rulings now about
trial witnesses, the Court declines her invitation to make that determination at this stage of the proceedings.

App. 16
undisputed facts. (Doc. 65).5 Finally, Defendant asks
the Court (doc. 65) to strike those portions of Plaintiff ’s
brief opposing summary judgment (doc. 68) that fail to
comply with Appendix II to this Court’s Uniform Initial Order (doc. 10).
A. Plaintiff ’s Rule 26 Challenges
Plaintiff ’s Rule 26 challenges are set out both in
documents 53 and 54.6 Specifically, she asks this Court
to exclude the declarations of Dr. Mark Richardson, Dr.
Tyler Burgess, Grace Hicks, and Dawn Skewes. She
states that, in violation of FED. R. CIV. P. 26, none of
these individuals were identified by Defendant prior to
the close of discovery. Accordingly, she says, their declarations must be struck. FED. R. CIV. P. 37(b)(2)(A) and
(c)(1).
Defendant responds that these individuals were
timely disclosed and/or otherwise known to Plaintiff.
(Doc. 55). Defendant states: (1) Grace Hicks and Dawn
Skewes were listed in plaintiff ’s Third Amended
5

Plaintiff also seeks to strike from consideration a court
opinion issued by this Court in another case. (Doc. 53). The basis
for this request is that the opinion was not timely disclosed. This
argument is without merit.
6
The Court here only refers to the Rule 26 challenge to the
Hicks declaration. In document 54, Plaintiff also seeks to strike
the declarations of Tim Loveless and of Sheila Phillips on the basis that they are “sham” declarations, and to exclude portions of
the Loveless declaration, and portions of the declaration of Grace
Hicks, as hearsay, unsupported ultimate conclusions, and/or irrelevant. These arguments are not addressed in this portion of
the Court’s opinion.

App. 17
Initial Disclosures;7 (2) Defendant’s Initial Disclosures
provided the following: “Defendant also identifies any
other individual listed in plaintiff ’s Rule 26 disclosures, any party’s deposition, plaintiff ’s witness list
and plaintiff ’s responses to discovery requests;” and (3)
additionally, all of these individuals’ identities and positions with Defendant were disclosed to Plaintiff numerous times throughout discovery in this case, both
during depositions and in documents produced in response to Plaintiff ’s multiple Request for Production of
Documents. Defendant then listed, as to each individually challenged declarant, multiple examples of such
disclosures.
In reply (doc. 66), Plaintiff disagrees with Defendant’s interpretation of Rule 26, says that this Court’s
Order (as “always understood” by Plaintiff ’s counsel) is
broader than Rule 26, and posits several questions.
However, Plaintiff intentionally omits language that
makes clear that her counsel’s “understanding” is not
supportable. Specifically, Plaintiff quotes (only) the following language as the basis for this “understanding”:
Here, the Court’s Scheduling Order provides
that “no person may testify whose identity, being subject to disclosure or timely
requested in discovery, was not disclosed
in time to be deposed or to permit the
substance of his knowledge and opinions
to be ascertained.”

7

A copy of which is attached to Defendant’s response.

App. 18
(Doc. 66 at 4) (emphasis in original). By omitting the
context, and indeed, by omitting the first portion of the
sentence she does set out, the Court can only conclude
that Plaintiff seeks to mislead.8 That effort fails, as
does Plaintiff ’s argument that this Court has imposed
through its Scheduling Order disclosure obligations
broader than those set out in Rule 26.
Turning now to Rule 26, the Court notes that a
party generally is required to disclose the names of individuals likely to have discoverable information that
will be used to support a claim or defense. FED. R. CIV.
P. 26(a)(1)(A). This initial disclosure must be supplemented in a timely manner if the initial disclosure was
materially incomplete “and if the additional or corrective information has not otherwise been made known
to the other parties during the discovery process.” Id.
26(e)(1)(A) (emphasis supplied). Rule 37 prohibits a
party from using a witness’s testimony to support a
motion if it has failed to identify that witness in accordance with Rule 26, unless the failure to disclose
was substantially justified or harmless. FED. R. CIV. P.
37(c)(1) (emphasis supplied).
8

The entire paragraph Plaintiff quotes reads:
Non-expert witnesses and exhibits not so disclosed and listed will not be permitted at trial except for impeachment or rebuttal, and no person
may testify whose identity, being subject to disclosure or timely requested in discovery, was not
disclosed in time to be deposed or to permit the
substance of his knowledge and opinions to be
ascertained.
(Doc. 17 at 2) (emphasis in original).

App. 19
The Court has reviewed Defendant’s detailed and
extensive list of its disclosures of these declarants, and
finds that said disclosures not only informed Plaintiff
of the names of the declarants, but did so in such a way
that the facts to which they could likely testify was
clear. For that reason, the Court finds that, as to each
such declarant, Plaintiff ’s request to exclude the declarations based on Rule 26 is due to be denied.
B. Challenges to Declarations
Plaintiff ’s asks the Court (doc. 54) to strike the
declarations of Tim Loveless and of Sheila Phillips on
the basis that they are “sham” declarations.9 She also
seeks to exclude portions of the Loveless declaration,
and portions of the declaration of Grace Hicks, as hearsay, unsupported ultimate conclusions, and/or irrelevant.10
“A court may determine that an affidavit is a sham
when it contradicts previous deposition testimony and
the party submitting the affidavit does not give any
valid explanation for the contradiction.” Latimer v.
Roaring Toyz, 601 F.3d 1224, 1237 (11th Cir. 2010).
“When a party has given clear answers to unambiguous questions which negate the existence of any
9

Plaintiff does not otherwise challenge the declaration of
Sheila Phillips.
10
To the extent that she seeks to exclude the declaration of
Grace Hicks for Defendant’s failure to timely disclose her, the
Court has addressed that request in the previous section of this
Memorandum Opinion and will not repeat its analysis here.

App. 20
genuine issue of material fact, that party cannot thereafter create such an issue with an affidavit that merely
contradicts, without explanation, previously given
clear testimony.” Van T. Junkins & Assocs., Inc. v. U.S.
Indus., Inc., 736 F.2d 656, 657 (11th Cir. 1984). The
Court must apply the sham affidavit doctrine sparingly, though, “because of the harsh effect it may have
on a party’s case.” Allen v. Bd. of Pub. Educ. for Bibb
Cty., 495 F.3d 1306, 1316 (11th Cir. 2007) (quoting Rollins v. TechSouth, 833 F.2d 1525, 1530 (11th Cir. 1987)).
For example, the Court should not use the sham affidavit doctrine to disregard a declarant’s testimony
where the declarant expressed a lack of certainty or
recall during his or her deposition. See id. at 1316-17
(holding that plaintiffs’ written averments about uncompensated work time should not be disregarded as
shams where the plaintiffs expressed a lack of certainty during depositions). Further, not every item that
could serve as the basis to impeach a party-witness
with earlier deposition testimony will lead to that
party-witness’s testimony being struck. A slight contradiction or an arguable contradiction is not enough.
If portions of an affidavit are inadmissible, the Court
will disregard the inadmissible testimony and consider
the admissible testimony from that affidavit in analyzing the summary judgment motion. Lee v. Nat’l Life Assur. Co. of Canada, 632 F.2d 524, 529 (5th Cir. 1980).
The Court has reviewed the deposition testimony
that Plaintiff says is contradicted by Loveless’s declaration and finds that none of the instances cited actually is a “clear contradiction,” either because the prior

App. 21
testimony was of a failure to recall, or because Plaintiff
otherwise has not explained how the deposition testimony’s materially varied from his declaration. The
Court will deny the motion to strike the challenged
portions of his declaration as “sham.”
The Court reaches the same conclusions after reviewing the cited-by-Plaintiff deposition testimony of
Phillips in comparison to the cited-by-Plaintiff declaration testimony of Phillips. The Court will deny the
motion to strike her declaration.
Plaintiff has also objected to portions of the declarations of Loveless and to portions of the declaration of
Grace Hicks as hearsay, unsupported ultimate conclusions, and/or irrelevant. Specifically, as to the Loveless
Declaration, Plaintiff states that it contains
9 hearsay statement of the following individuals: (1) Board employees (Doc. 35-27, p. 4,
¶ 3); (2) Pat Strange (Doc. 35-27, p. 4, ¶ 3); (3)
Mr. Butler (Doc. 35-27, p. 4, ¶ 4); (4) Phillips
(Doc. 35-27, p. 5, ¶ 2); (5) the Board (Doc. 3527, p. 6, ¶ 1); (6) Ms. Hanson (Doc. 35-27, p.6,
¶ 1); and (7) other VHHS employees(Doc. 3527, p.7, ¶2).
(Doc. 54 at 12-13).
The Court has reviewed all of these pages and has
found only three occasions when Loveless repeats
something he was told (a necessary precondition for a
hearsay challenge of this type). The first occasion is
when he says: “I received multiple complaints from
several Board employees, including Pat Strange,

App. 22
concerning Smith’s habitual tardiness or other employees having to cover Ms. Smith’s desk in the mornings in her absence. Strange complained on several
occasions that she was unable to timely start her duties for the day because she had to cover Smith’s desk
by assisting someone who called or stopped by the
front office before Ms. Smith arrived.” (Doc. 35-27 at 4).
These statements are not being offered for the truth of
the matter asserted (by others who spoke to Loveless).
They are not hearsay and will not be excluded.
The second occasion is when he says: “Ms. Smith
acknowledged that this was an area which needed improvement during our meeting to go over the evaluation.” (Id. at 5). This statement is a party admission
and, by rule, is not hearsay. FED. R. EVID. 801(2)(A). It
will not be excluded.
The third occasion is when he says: “On the one
occasion Ms. Smith said ‘They always treat me this
way,’ she did not say that she felt that any alleged mistreatment was motivated by discrimination based on
her race or age.” (Id. at 7). Again, this is a statement
by Plaintiff. Additionally, it is not offered for the truth
of the matter asserted, and accordingly is not hearsay.
It will not be excluded.
Plaintiff also complains that “Loveless testifies
about what observations Kevin Butler, Assistant Principal, could or could not make when Kevin Butler was
walking the school building or property.” (Doc. 54 at 13)
(citing doc. 35-27 at 4, ¶4). Based on Loveless’s familiarity with the school building and property, this

App. 23
objection is without merit. At most, it goes to weight,
and not admissibility. Plaintiff also states: “Loveless
also provides vague testimony about ‘if a person were
in the lobby, his or her view of Ms. Smith’s desk would
have been obstructed by the wall and the door which
separate the lobby from the front office. Further, an individual standing in the lobby by the front doors cannot see someone in the mail room.’ ” (Doc. 54 at 13)
(citing doc. 35-27 at 5, ¶1). Again, this objection is without merit. Plaintiff also complains that “Paragraph 2
of page 5 of [the Loveless] declaration contains numerical percentages that are not supported by any data,
nor does Loveless describe how he reached this number. He states[:] ‘Over the course of her two year employment with the Board, Ms. Smith’s time records
establish that she was late 87% of the days.’ There is
no foundation for these numbers to determine whether
there is supporting evidence or whether Loveless made
the numbers up. These statements are admittedly
based upon Loveless’ belief and speculation and due to
be struck.” (Doc. 54 at 13-14). The Court finds nothing
speculative about these statements. They will not be
excluded.
Plaintiff asserts that the following statements by
Loveless constitute “ultimate legal conclusions under
the guise of facts”. (Doc. 54 at 13) “When discussing
Plaintiff ’s conversations with [him], he asserts ‘she did
not say that she felt that any alleged mistreatment
was motivated by discrimination based on her race and
age.’” (Id.). This objection is without merit. At most, the
statement is Loveless’s opinion about the content of

App. 24
statements to him by Plaintiff. The opinion of a lay witness is permitted, even on the ultimate issue of a case,
if the testimony is based on personal observations.
Carter v. DecisionOne Corp. Through C.T. Corp. Sys.,
122 F.3d 997, 1005 (11th Cir. 1997). The statement will
not be excluded.
Plaintiff also seeks to have the Court strike portions of the declaration of Grace Hicks as “hearsay and
statements that lack personal knowledge or irrelevant
information by Hicks.” (Doc. 54 at 17.). More specifically, Plaintiff says: “Hicks states she ‘understood’ her
job duties were in relation to Connie Thomas and Anita
Smith.” (Id.). This is not hearsay. Hicks has the requisite familiarity regarding how to perform her job duties, including knowing what they were in relation to
those of co-employees. The statement will not be excluded.
Plaintiff further states that “Hick’s [sic] declaration contains hearsay. She testifies to three different
lines in her declaration regarding what Pat Strange
told her or did not tell her and that she never felt (as a
white person) that Strange mistreated her. (Id.). The
three “lines” of Hicks’s declaration that mention
Strange are “I was never told by Pat Strange not to
cover Ms. Smith’s desk for her while she went to lunch
or at any other time. I have never heard Ms. Strange
make any comments I felt were racist.” (Doc. 35-28 at
2). This is not hearsay. Plaintiff overreaches when she
says this testimony is regarding “what Pat Strange
told her.” It is only regarding what Pat Strange did not

App. 25
tell her (and Hicks’s feelings). The statements will not
be excluded.
Plaintiff next complains that “Hicks also provides
testimony about her time sheets and provides a different starting time than that discussed by her supervisor.” (Doc. 54 at 17) (citing doc. 35-28 at 3,¶1). Plaintiff
seems to argue that a Court should exclude any testimony by one witness that is different that the testimony of another witness. This argument is without
merit or logic. The statements will not be excluded.
Plaintiff argues that “Hicks also provides the opinion and ‘understanding’ that she is one year older than
Smith. . . . This testimony is not based on personal
knowledge and is due to be struck.” (Doc. 54 at 17) (citing doc. 35-28 at 3, ¶1). The Court agrees. Testimony
based solely on a witness’s understanding is comparable to belief testimony and inadmissible under Rule 56.
E.g., Cermetek, Inc. v. Butler Avpak, Inc., 573 F.2d 1370,
1377 (9th Cir. 1978) (explaining that a witness’s testimony based on understanding was insufficient to show
that the witness could present competent testimony at
trial); Rolison v. Sterling, No. 08–0389–CG–M, 2009
WL 2514294, at *5-6 (S.D. Ala. Aug. 13, 2009)
(Granade, J.) (striking an averment that began with a
qualifying phrase based on the affiant’s understanding). This statement will be excluded.
Plaintiff also complains that “Hick’s [sic] also reviews and provides testimony on time sheets that she
has provided that have not been certified by [Defendant] as business records. This testimony is due to be

App. 26
struck as speculation and conjecture.” (Doc. 54 at 17).
The Court disagrees. The statements will not be excluded.
C. Admissibility of Plaintiff ’s Exhibit 2
Defendant has moved (doc. 60) to strike Plaintiff ’s
Exhibit 2 to her opposition to the Motion for Summary
Judgment. The exhibit is the “Wage and Hour Handbook” for the Vestavia Hills City School System. (Doc.
44-2). Defendant says that Exhibit 2 is irrelevant because it states, on its face, that it was not effective until
August 10, 2015 (see doc. 44-2 at 1), which is after the
date the adverse employment action—the nonrenewal
of Plaintiff ’s contract—occurred. Plaintiff says, in effect, without citation to any authority, that Defendant’s
counsel tricked her and therefore Defendant is “estopped” from seeking to strike this exhibit. (Doc. 72 at
7). Defendant does not deny its failure to produce a
time-appropriate version of Plaintiff ’s Exhibit 2. Defendant responds that Plaintiff requested (after August 10, 2015) “manuals and policies which were
currently in effect.” (Doc. 77 at 2, ¶5) (emphasis supplied). However, this is not accurate. In the request for
production at issue (Request No. 6), Plaintiff requested
“Produce any and all employee handbooks,
personnel policies and procedures, manuals,
directives, memoranda or other VBOE documents regarding hiring promotion, progressive
discipline,
attendance,
tardiness,
discrimination, harassment, retaliation, nonrenewal of contract, resignation, termination,

App. 27
salary, benefits and EEO policies, and any and
all documentation of employee training on
these policies and procedures from January 1,
2011 to the present.”
(Doc. 53-4 at 7) (emphasis supplied).
Nonetheless, Defendant is correct that Plaintiff ’s
Exhibit 2 is irrelevant. It will be excluded. However, in
ruling on the Motion for Summary Judgment, to the
extent that Defendant relies on its “wage and hour policies,” the Court will consider Defendant’s failure to
produce a responsive time-appropriate version of Exhibit 2.11
D. Admissibility of Challenged Portions of
Plaintiff ’s Exhibits 5, 7, 9, 10, and 21
Portions of Plaintiff ’s Exhibits 5, 7, 9, 10, and 21
to her opposition to the Motion for Summary Judgment
are “summaries.” Defendant moves to exclude these
summaries as not proper under FED. R. EVID. 1006.
Specifically, Defendant argues that the records summarized are not voluminous, Plaintiff has failed to
identify who prepared them, and they contain inaccurate assumptions. Defendant also seeks to exclude certain employee time records as not authenticated. (Doc.
61).

11

The Court further notes that Defendant attached a copy of
the relevant (by time period) policy manual as Exhibit H to its
Motion for Summary Judgment. (See Doc. 35 at 9, n. 5; doc. 3519).

App. 28
Plaintiff responds that the employee time records
were produced by Defendant. (Doc. 73). Defendant
quibbles with this response, but ultimately does not
deny that they are Defendant’s records. (Doc. 79).
As Plaintiff has shown that she will be able to authenticate the employee time records at trial, Defendant’s request that the Court exclude them at summary
judgment is without merit. The employee time records
will not be excluded.
As to the summaries, Plaintiff states that they
were prepared by a paralegal employed by her attorney and under that attorney’s supervision and direction and therefore they can be authenticated at trial.
The Court agrees and rejects Defendant’s motion to the
extent it is based on lack of authentication.
Federal Rule of Evidence 1006 provides that a
party “may use a summary, chart, or calculation to
prove the content of voluminous writings, records, or
photographs that cannot be conveniently examined in
court.” Once admitted, a Rule 1006 summary is considered substantive evidence. Peat, Inc. v. Vanguard Research, Inc., 378 F.3d 1154, 1159 (11th Cir. 2004). Rule
1006 summary evidence can be submitted at the summary judgment stage. See Mitchell v. Univ. of La. Sys.,
154 F. Supp. 3d 364, 380 n. 8 (M.D. La. 2015) (deGravelles, J.) (citing F.T.C. v. Hughes, 710 F. Supp. 1520,
1524 (N.D. Tex. 1989) (Fish, J.)). For a summary to be
admitted in court as substantive evidence, the proponent must provide a proper foundation for its admission, which should include the testimony of the witness

App. 29
who prepared it or supervised its preparation. ColonFontanez v. Municipality of San Juan, 660 F.3d 17, 31
(1st Cir. 2011). And, a summary admitted under Rule
1006 must be based on materials or documents that
are themselves admissible under the Federal Rules of
Evidence. Peat, Inc., 378 F.3d at 1160.
As explained above, Plaintiff has now identified
who prepared these summaries and who supervised
their preparation. Further, the Court finds that the underlying documents are, indeed, voluminous. For example, Plaintiff ’s Exhibit 5 summarizes information
from 337 time sheets. The first twelve pages of Plaintiff ’s Exhibit 7 summarizes information from 262 time
sheets. The other challenged exhibits similarly summarize voluminous information. Accordingly, the exhibits meet this criteria of Rule 1006.
To the extent that Defendant objects that the summaries contain “assumptions,” Plaintiff is correct when
she says that assumptions are permissible. “[T]he essential requirement is not that the charts be free from
reliance on any assumptions, but rather that these assumptions be supported by evidence in the record.”
United States v. Norton, 867 F.2d 1354, 1363 (11th Cir.
1989)(internal citations omitted). Plaintiff has shown
(doc. 73) evidentiary support for the assumptions.
While there is evidence that differs from that evidentiary support, assumptions need not be supported by
undisputed evidence in order to be admissible. The
summaries will not be excluded.

App. 30
E. Admissibility of Plaintiff ’s Exhibit 16
Defendant asks the Court (doc. 63) to exclude four
documents contained within Plaintiff ’s Exhibit 16 to
her opposition to Defendant’s Motion for Summary
Judgment. The basis for exclusion is that the documents are not authenticated. (Id.). Plaintiff says that
they came from Defendant and thus can be authenticated at trial. (Doc. 74). Defendant agrees that it produced the documents, but says they do not mean what
Plaintiff says they mean. (Doc. 80). This is classic argument at summary judgment, not a reason to exclude
the documents from the record. The documents will not
be excluded.
F. Admissibility of Plaintiff ’s Citations to
Law Review Articles and Websites
Defendant asks the Court to exclude Plaintiff ’s citations to law review articles and websites as unauthenticated. (Doc. 64). Plaintiff fails to join issue, and
responds only that these articles and websites show
that Plaintiff ’s opinion that what happened to her was
based on racial stereotypes is reasonable. (Doc. 75). Defendant replies that the “[P]laintiff has abandoned her
hostile work environment claim” (Doc. 81 at 2, ¶3) and
thus the “reasonableness” of her opinions is no longer
an issue in this case. Defendant further replies that
Plaintiff ’s “use of information from an online ‘transmedia storytelling site’ and [W]ikipedia is akin to the
use of newspaper articles and other informal literature.” (Doc. 81 at 2, ¶4). The Court agrees. Plaintiff

App. 31
failed to respond to Defendant’s motion insofar as it
sought summary judgment as to her hostile work environment claim, and has therefore abandoned that
claim. See, e.g., Resolution Trust Corp. v. Dunmar Corp.,
43 F.3d 587, 599 (11th Cir. 1995) (“[G]rounds alleged in
the complaint but not relied upon in summary judgment are deemed abandoned.”)
Additionally, the Court agrees that facts set out in
law review articles and informal websites (as opposed
to official government websites) are similar to facts set
out in newspapers. As such, they are inadmissible
hearsay and not subject, without more, to any exception, including judicial notice. See Cofield v. Alabama
Pub. Serv. Comm’n, 936 F.2d 512, 517 (11th Cir. 1991)
(“That a statement of fact appears in a daily newspaper does not of itself establish that the stated fact is
‘capable of accurate and ready determination by resort
to sources whose accuracy cannot reasonably be questioned.’ FED.R.EVID. 201(b)(2).”). Consistent with Cofield and the authority cited by Defendant, these
documents will be excluded.12

12

Ferguson v. Thomas, 2016 U.S. Dist. LEXIS 91286 (N.D.
Ala. July 14, 2016)(Proctor, J.), citing an explanation from the
11th Circuit in McMillian v. Johnson, 88 F.3d 1573, 1584 (11th
Cir. 1996), aff ’d sub nom, McMillian v. Monroe Cty., Ala., 520
U.S. 781, 117 S. Ct. 1734, 138 L. Ed. 2d 1 (1997).

App. 32
G. Defendant’s Motion To Strike Portions
of Plaintiff ’s Response Brief
Defendant has moved to strike (doc. 65) potions of
Plaintiff ’s brief (doc. 43) in response to Defendant’s
Motion for Summary Judgment (doc. 34). To the extent
that the motion seeks to exclude portions that reference law review articles and websites, consistent with
the Court’s ruling excluding law review articles and excerpts from websites as evidence, the Court will not
consider Plaintiff ’s references to those items. To that
extent, Defendant’s motion will be granted.
The motion also seeks to have the Court exclude
portions of Plaintiff ’s brief. The basis for this aspect of
Defendant’s motion is that Plaintiff ’s insertion of facts
into the portion of her brief in which she disputes Defendant’s statement of material facts is contrary to this
Court’s Uniform Scheduling Order Appendix II. That
Order (doc. 10), at Appendix II, sets out the Court’s requirements regarding motions for summary judgment
and oppositions thereto. Regarding the “manner of
stating facts” in briefs in support and opposition to
such motions, that Order states as follows:
D.

Manner of Stating Facts

All briefs submitted either in support of
or opposition to a motion must begin with a
statement of allegedly undisputed relevant
material facts set out in separately numbered
paragraphs. Counsel must state facts in clear,
unambiguous, simple, declarative sentences.
All statements of fact must be supported by
specific reference to evidentiary submissions.

App. 33
1.

Moving Party’s Initial Statement
of Facts

The moving party shall list in separately numbered paragraphs each material fact the movant contends is true and
not in genuine dispute, and upon which
the moving party relies to demonstrate
that it is entitled to summary judgment.
Each such statement must be followed by
a specific reference to those portions of
the evidentiary record that the movant
claims supports it. FN 3.
FN. 3 Each statement of fact should be
supported by its own evidentiary citation,
regardless of the fact that more than one
statement of fact allegedly is supported
by the same specific reference to the evidentiary record or more than one statement of fact is contained in the same
numbered paragraph.
2.

Opposing Party’s Statement of
Facts

Each party opposing a summary
judgment motion also must submit a
statement of facts divided as follows.
a.

Response to Movant’s Statement

The first section must consist of
only the non-moving party’s disputes,
if any, with the moving party’s
claimed undisputed facts. The nonmoving party’s response to the

App. 34
moving party’s claimed undisputed
facts shall be in separately numbered
paragraphs that coincide with those
of the moving party’s claimed undisputed facts. Any statements of fact
that are disputed by the non-moving
party must be followed by a specific
reference to those portions of the evidentiary record upon which the dispute is based. All material facts set
forth in the statement required of the
moving party will be deemed to be admitted for summary judgment purposes unless controverted by the
response of the party opposing summary judgment.
b.

Additional Undisputed Facts

The second section may contain
additional, allegedly undisputed
facts set out in separately numbered
paragraphs that the opposing party
contends require the denial of summary judgment. The second section
of the opposing party’s statement of
facts, if any, shall be clearly designated as such. FN. 4. The opposing
party should include only facts which
the opposing party contends are true
and not in genuine dispute.
FN. 4. Each statement of fact should
be supported by its own evidentiary
citation, regardless of the fact that
more than one statement of fact

App. 35
allegedly is supported by the same
specific reference to the evidentiary
record or more than one statement of
fact is contained in the same numbered paragraph.
c.

Additional Disputed Facts

The third section may contain
additional, allegedly disputed facts
set out in separately numbered paragraphs that the opposing party contends require the denial of summary
judgment. The third section of the opposing party’s statement of facts, if
any, shall be clearly designated as
such. Each statement of allegedly
disputed facts must be followed by
specific reference to those portions of
the evidentiary record which both
support and contradict the alleged
fact. FN.5.
FN.5. The court recognizes that, in
some circumstances, a party opposing a motion for summary judgment
may want to set out facts which that
party claims are true and supported
by evidence, but cannot, in good conscience and consistent with Rule 11,
say are undisputed. In such case, the
party should include a separate section of fact statements, set out in
short declarative sentences and individually numbered paragraphs, which
are supported by some evidence but,

App. 36
nevertheless, are in dispute. When
doing so, however, the party should
include record citations which both
support and contradict the alleged
fact.
3.

Moving Party’s Reply

The reply submission, if any, shall
consist of only the moving party’s disputes, if any, with the non-moving party’s
additional claimed undisputed facts. The
moving party’s response to the non-moving party’s additional claimed undisputed
facts shall be in separately numbered paragraphs that coincide with those of the
non-moving party’s additional claimed
undisputed facts. Any statements of fact
that are disputed by the moving party
must be followed by a specific reference to
those portions of the evidentiary record
upon which the disputation is based. All
additional material facts set forth in the
statement required of the opposing parties
will be deemed to be admitted for summary judgment purposes unless controverted by the statement of the movant.
The court reserves the right sua
sponte to STRIKE any statements of
fact or responsive statements that
fail to comply with these requirements.
(Doc. 10, Appendix II, at 16-19) (emphasis in original).

App. 37
The Court thinks this Order is self-explanatory.
The Court will enforce its Order as written. Accordingly, to the extent that Plaintiff ’s response in opposition to Defendant’s Motion for Summary Judgment
fails to comply with this Order, the Court will disregard such non-compliant portion(s).
III. SUMMARY JUDGMENT STANDARD
Under Federal Rule of Civil Procedure 56, summary judgment is proper if there is no genuine dispute
as to any material fact and the moving party is entitled
to judgment as a matter of law. Fed. R. Civ. P. 56(a); see
also Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986)
(“[S]ummary judgment is proper if the pleadings, depositions, answers to interrogatories, and admissions on
file, together with the affidavits, if any, show that there
is no genuine issue as to any material fact and that the
moving party is entitled to a judgment as a matter of
law.”) (internal quotation marks and citation omitted).
The party requesting summary judgment always bears
the initial responsibility of informing the court of the
basis for its motion and identifying those portions of
the pleadings or filings that it believes demonstrate
the absence of a genuine issue of material fact. Celotex,
477 U.S. at 323. Once the moving party has met its burden, Rule 56(e) requires the non-moving party to go beyond the pleadings in answering the movant. Id. at
324. By its own affidavits – or by the depositions, answers to interrogatories, and admissions on file – it
must designate specific facts showing that there is a
genuine issue for trial. Id.

App. 38
The underlying substantive law identifies which
facts are material and which are irrelevant. Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). All reasonable doubts about the facts and all justifiable inferences are resolved in favor of the non-movant.
Chapman, 229 F.3d at 1023. Only disputes over facts
that might affect the outcome of the suit under the governing law will properly preclude the entry of summary judgment. Anderson, 477 U.S. at 248. A dispute
is genuine “if the evidence is such that a reasonable
jury could return a verdict for the nonmoving party.”
Id. If the evidence presented by the non-movant to rebut the moving party’s evidence is merely colorable, or
is not significantly probative, summary judgment may
still be granted. Id. at 249.
How the movant may satisfy its initial evidentiary
burden depends on whether that party bears the burden of proof on the given legal issues at trial. Fitzpatrick v. City of Atlanta, 2 F.3d 1112, 1115 (11th Cir.
1993). If the movant bears the burden of proof on the
given issue or issues at trial, then it can only meet its
burden on summary judgment by presenting affirmative evidence showing the absence of a genuine issue of
material fact – that is, facts that would entitle it to a
directed verdict if not controverted at trial. Id. (citation
omitted). Once the moving party makes such an affirmative showing, the burden shifts to the non-moving
party to produce “significant, probative evidence
demonstrating the existence of a triable issue of fact.”
Id. (citation omitted) (emphasis added).

App. 39
For issues on which the movant does not bear the
burden of proof at trial, it can satisfy its initial burden
on summary judgment in either of two ways. Id. at
1115-16. First, the movant may simply show that there
is an absence of evidence to support the non-movant’s
case on the particular issue at hand. Id. at 1116. In
such an instance, the non-movant must rebut by either
(1) showing that the record in fact contains supporting
evidence sufficient to withstand a directed verdict motion, or (2) proffering evidence sufficient to withstand
a directed verdict motion at trial based on the alleged
evidentiary deficiency. Id. at 1116-17. When responding, the non-movant may no longer rest on mere allegations; instead, it must set forth evidence of specific
facts. Lewis v. Casey, 518 U.S. 343, 358 (1996). The second method a movant in this position may use to discharge its burden is to provide affirmative evidence
demonstrating that the non-moving party will be unable to prove its case at trial. Fitzpatrick, 2 F.3d at 1116.
When this occurs, the non-movant must rebut by offering evidence sufficient to withstand a directed verdict
at trial on the material fact sought to be negated. Id.

App. 40
IV. FACTS13
A. Plaintiff and Her Employment by Defendant
Plaintiff is an African-American female, and is approximately fifty-one years of age. She worked for the
Birmingham Board of Education for twenty years as a
secretary/bookkeeper and for the Bessemer Board of
Education for another five years. She retired from her
position with Bessemer a couple of months before being hired by Defendant in 2013.
Wes Gordon (“Gordon”) was the principal of Vestavia High School (“VHS”) during the 2013-2014 school
year. He interviewed Plaintiff for the position of secretary/registrar with VBE. Plaintiff was hired for that
position and, for two years, Defendant employed her at
13

The facts set out herein are the facts proffered by the parties. To the extent that a party has proffered a fact which is not
disputed, it has been included herein, without citation. To the extent that a fact proffered by a party was disputed by another
party, the Court first examined the proffered fact to determine
whether the evidence cited in support of that fact actually supported the fact as stated. If it did not, the fact was not included.
If it did, the Court then looked to see whether the evidence cited
in support of the dispute actually established a dispute. If it did
not, the Court presented the fact as proffered, with citation to the
evidence supporting the fact as proffered. If the evidence did support a dispute, the fact was cast, as this Court must, in the light
most favorable to the non-movant, with citation to the evidence
supporting the fact in that light. If more explanation was needed,
the Court included that information in an appropriate footnote.
Some facts proffered by the parties, which the Court deemed irrelevant and/or immaterial, have been omitted. The Court did not
include facts that were not offered in the manner required by Appendix II to the Court’s Uniform Initial Order.

App. 41
Vestavia Hills High School (“VHHS”). During her interview, the principal explained to her the duties and
hours for that particular position. The assigned hours
were 7:00 a.m. to 3:00 p.m. (Doc. 35-1 at 42). Plaintiff
acknowledges that she fully understood the duties
which were assigned to her in the secretary/registrar
position.
B. The 2013-14 School Year
Gordon evaluated Plaintiff during the 2013-2014
school year. In each category of assessment, Gordon
rated Smith’s performance as either “Meets or Exceeds
Requirements” or “Demonstrates Excellence.” During
the 2013-14 school year, VHHS office staff included the
following: Connie Thomas, the student attendance secretary, who sat at the desk in the lobby assisting parents who came to check in or check out students and
greeting visitors to the school; Plaintiff, who sat at the
front desk in the main office and handled all of the
other duties associated with a receptionist at a regular
business office; Margie Nelson, the registrar, whose office door opened to the main office and who handled
residency and custody issues, maintenance of student
files and report cards, and maintenance of the student
data base; and Pat Strange, the secretary to the principal, whose office was around the corner and down a
short hall from Plaintiff ’s desk, who performed secretarial duties for the principal. (Doc. 35-12 at 31-32; doc.
35-12 at 8, 47-48; doc. 35-15 at 85; doc. 35-27).

App. 42
The two front desks, which included Plaintiff ’s
desk and Connie Thomas’s desk, needed to be covered
at all times. In the opinion of the principal, the two
most important positions in the front office of VHHS
were the ones held by Connie Thomas and Plaintiff because they were the first employees that visitors encountered at the school. It was imperative that
Plaintiff and Connie Thomas be at the school on time
and perform their job requirements.
The thirty minute lunch break for the high school
office staff varied, and there was no other break time
during the day. (Doc. 35-1 at 44-45, 47, 55, 56). Either
Margie Nelson or a student aide would cover Plaintiff ’s
desk while she took her lunch break. If neither Margie
Nelson nor an office aide were available, Pat Strange
would cover Plaintiff ’s desk during her lunch break.
Plaintiff admits that she was not discriminated
against because of her race or age during the 2013-14
school year. She also admits that she was not retaliated
against during the 2013-14 school year.
Wes Gordon evaluated Plaintiff during the 20132014 school year. In each category of assessment, Gordon rated Plaintiff ’s performance as either “Meets or
Exceeds Requirements” or “Demonstrates Excellence.”
C. Summer of 2014
Plaintiff alleges racial discrimination against her
began during the 2014 summer. According to Plaintiff,
Strange “discriminated” against her by making

App. 43
belittling remarks and speaking negatively about her
to other co-workers during the 2014 summer. (Doc.
35-1 at 64-65). As an example, when Plaintiff ’s husband purchased a car, Plaintiff claims she overheard
Strange say that Plaintiff ’s working in Vestavia enabled them to purchase the car. Plaintiff admits that she
was not discriminated against because of her age or retaliated against during the 2014 summer.
D. 2014-15 School Year14
Plaintiff also performed the duties of secretary/registrar at VHS during the 2014-2015 school
year. Plaintiff completed the wage and hour on-line
training on VBE’s policy on September 18, 2014. Plaintiff completed online training provided by the Board on
discrimination awareness in the workplace, among
other topics, in September and October 2014.
During that time, Margie Nelson (“Nelson”) or
Grace Hicks (“Hicks”) covered Plaintiff ’s desk during
her lunch breaks. (Doc. 35-12 at 71; doc. 35-28 at 1-2).
When Plaintiff was late to work, Nelson or Pat Strange
(“Strange”) would typically cover Plaintiff ’s desk until
she arrived, which included opening up the front office
and assisting anyone who needed help. (Doc. 35-12 at
31, 34-35; doc. 35-13 at 110-111; doc. 35-27 at 2).

14

Plaintiff admits that she was not discriminated against because of her age during the first semester of the 2014-15 school
year.

App. 44
Tim Loveless (Loveless”) replaced Gordon as the
principal of VHS for the 2014-2015 school year. At the
beginning of the 2014-2015 school year, the staff at
VHS was the same as the previous year. In September
2014, after becoming Principal at VHS, Loveless
learned about attendance problems with several teachers and staff. In September 2014, Loveless reviewed all
of the time sheets, looking for a pattern of tardiness.
Then, about every other month, he would look at those
he considered had a pattern of tardiness.
After an initial review of all VHHS employees’
time cards in September 2014 showed a pattern of tardiness with several employees, including Plaintiff,
Loveless monitored those employees’ time cards
throughout the remainder of the school year. In monitoring Plaintiff ’s time cards, Loveless determined that
over the course of her two year employment with the
Board, Plaintiff was late 87% of the time. Loveless
never discussed tardiness with the individuals that he
considered to have a pattern of tardiness.
On September 22, 2014, Phillips received an email
from a parent complaining about the secretarial staff
at VHHS and forwarded it to Loveless. Phillips expected Loveless to call the parent involved and to address the complaint with the secretarial staff. In the
forwarding email from Phillips to Loveless, Phillips
states: “This has been a common complaint of parents
at VHHS – for years.” Phillips was referring to the secretarial staff in general. She was not referring to Plaintiff. Loveless forwarded the email to Strange, asking
her to “File please.” Loveless did not believe that the

App. 45
email pertained to Plaintiff. Loveless had received
complaints from parents “on just about everybody in
the front office.”
On November 18, 2014, Strange printed out the
email complaint and placed it in Plaintiff ’s file. She did
this despite the fact that the parent who sent the email
never spoke with Strange and never identified Plaintiff as the secretary about whom the complaint pertained. (35-12 at 106-109, 117-118). Strange assumed
that whenever a parent would complain about “the
lady in the front office,” that parent was complaining
about Plaintiff. Strange made this assumption despite
her claim that Plaintiff was frequently late and absent
from her desk during the day.
The Board hired Hicks in October 2014 as an aide
in the VHHS office. (Doc. 35-12 at 14-19; doc. 35-28 at
1). Prior to Hicks being hired by VBE, Plaintiff, as a
registrar, would attend periodic secretary/registrar
“iNow” meetings with Nelson. Prior to October 2014,
Hicks had served as a contract employee performing
data entry at VHHS. (Doc. 35-12 at 118-119; doc. 35-28
at 1).
Approximately one week after she started as an
office aide, Hicks’s hours changed from 7:00 a.m.-3:00
p.m. to 7:20 a.m.-3:20 p.m., and stayed that way for the
remainder of the 2014-15 school year. (Doc. 35-28 at 3).
Strange never told a secretary or an office aide not
to relieve Plaintiff for lunch. Strange also never directed any of the other secretaries at VHHS not to talk
to Plaintiff.

App. 46
During the second semester of the 2014-15 school
year, Plaintiff claims that she told Meredith Hanson
(“Hanson”), in passing, that she wanted to speak with
her regarding some things, and Hanson said she did
not have time and she would speak to her later. When
Hanson asked Plaintiff on another occasion for an idea
on what it was regarding, Plaintiff told her “it was
about Ms. Strange and the way that things were transpiring in the office, the way I was being treated in the
office by Ms. Strange, the way she was, you know,
speaking with other co-workers to – and then, withdrawing from me, et cetera.” (Doc. 35-1 at 107). Plaintiff allegedly gave Hanson some of the examples
described during her deposition where she claims to
have overheard Strange talking about her. Plaintiff
and Hanson never had a meeting where Plaintiff gave
her “a more in-depth insight” into her allegations
against Strange. (Doc. 35-1 at 108). There was no mention of race discrimination or a racially hostile work
environment when Plaintiff complained about
Strange’s alleged actions to Hanson. Hanson informed
Plaintiff that she would try to some have some conversations with her colleagues in attempt to figure out
Plaintiff ’s feelings of mistreatment.
Hanson subsequently informed Strange that
Plaintiff had told her that Strange was not treating her
fairly and was being disrespectful towards her. Strange
had no idea that Plaintiff felt that way, and she told
Hanson that she would try to do better in her interactions with Plaintiff. Hanson informed Loveless that
she had spoken to both employees about some

App. 47
disgruntled feelings among some of the co-workers in
the front office, and Loveless mentioned that Strange
was becoming impatient with Plaintiff ’s tardiness.
Afterwards, Hanson informed Plaintiff she had spoken
to Strange. Hanson never received a written grievance
from Plaintiff regarding any of her allegations of mistreatment.
As an example of Strange’s alleged discrimination
of her, Plaintiff remembers an instance, although she
does not remember when it occurred, when she showed
Nelson and Strange a picture of her brother’s family,
and she felt that Strange had an expression of “surprise and total resentment” that her brother was married to a white woman. (Doc. 35-2 at 9). Plaintiff admits
that Strange did not say anything after viewing the
picture, and Nelson made a positive comment, like “it
was a beautiful family.” (Doc. 35-2 at 11).
In another instance of alleged discrimination,
Plaintiff claims she saw a post on Strange’s Facebook
account15 of a college student wearing a t-shirt with a
Confederate flag on it. Plaintiff never spoke to Strange
about that Facebook post.
Plaintiff claims that she walked in on a conversation between Strange and a teacher regarding the high
school’s former flag, and when allegedly asked by
Strange whether it made sense that the flag had been
changed, Plaintiff responded “I know you’re not asking
me that” and walked out of the office. (Doc. 35-2 at 14).
15

Plaintiff and Strange were friends on Facebook.

App. 48
Another instance of alleged discrimination by
Strange was when Strange allegedly reiterated directions previously given to Plaintiff by the registrar, Nelson, and assistant principal, David Howard, to
complete withdrawal paperwork on an African American student Plaintiff alleges was “homeless.” (Doc. 352 at 22-23). While Plaintiff believed that the student
did not have to be withdrawn, she did not advise the
student’s parents of her belief. Plaintiff never complained to Loveless, her immediate supervisor, that she
felt that the student’s withdrawal was improper.
On another occasion, Plaintiff allegedly overheard
Strange tell Loveless that she was sick and tired of
Plaintiff. Immediately after overhearing the comment,
Plaintiff confirmed to Loveless that she had overheard
Strange and complained to Loveless that “that’s not
the first time. It always happens.” (Doc. 35-1 at 71).
Plaintiff did not mention race or age discrimination
when she made these comments to Loveless.
On April 27, 2015, Loveless completed an evaluation of Plaintiff, even though she had been evaluated
only eight months earlier. In that evaluation, Loveless
rated Plaintiff ’s overall performance as “Meets or Exceeds Expectations.” When Loveless met with Plaintiff
about this evaluation, he did not tell her that, if her
punctuality did not improve, he would recommend that
she be terminated. Loveless did not consider the performance evaluation that he gave to Plaintiff on April
27, 2015, as a disciplinary action. When Plaintiff met
with Loveless in his office to discuss his April 27, 2015,

App. 49
evaluation of her, she did not mention anything to him
about Strange’s alleged actions towards her.
In the April 27, 2015, evaluation, Loveless noted
that “punctuality was an area in need of improvement.” Plaintiff acknowledged that punctuality was an
area in which she needed to approve. Despite this notation on her evaluation and warning about her tardiness during the meeting, Plaintiff was still tardy 10 out
of the next 13 days. When Plaintiff was tardy to work,
other office employees, or sometimes even administrators, had to cover for her by assisting students, faculty,
parents, vendors or others who called or came by the
front office at 7:00 a.m. Plaintiff ’s tardiness was burdensome on Strange and Nelson because covering her
duties at the front desk caused them to delay starting
their job duties.
On April 27, 2015, Loveless evaluated Tracey
Towns (“Towns”). He rated her as “Meets or Exceeds
Requirements” as to “Reliability.” Towns is white.
Towns too had attendance issues. No one at VBE, including Loveless, ever discussed time and attendance
with Towns. Towns was tardy 337 times between July
25, 2013 and June 8, 2015. When asked why he did not
include a note on Towns’ evaluation pertaining to her
attendance issue, Loveless responded: “There was no
reason to mark anything at that time other than she
met and exceeded the requirements of her job position.. . . . In my professional judgment, it was not
needed for her.” (Doc. 35-14 at 35). Towns’ schedule required her to be at work from 7:45 a.m. to 3:45 p.m. She
rarely arrived at work at her 7:45 a.m. scheduled start

App. 50
time. Towns cleared, each time, if she knew ahead of
time, with her department head, that she would be late
to work because she had to help her chronically ill father. If an unexpected instance arose when Towns had
to be late, she would attempt to alert her department
head via text or phone call. Towns’ desk did not need
to be covered at all times, like the desks of the student
attendance clerk or front office secretary.
Hicks was supposed to be at work between 7:00
a.m. and 3:00 p.m. Loveless concluded that Hicks had
attendance issues by not arriving at 7:00 a.m. Loveless
never counseled Hicks about her time and attendance.
On April 27, 2015, Loveless evaluated Hicks. Loveless
rated her as “Meets or Exceeds Requirements” as to
“Reliability.”
Nancy Smith is another employee who Loveless
identified in September 2014 as having attendance
problems. (Doc. 35-14 at 20). Nancy Smith’s schedule
required her to be at work from 7:00 a.m. to 3:00 p.m.
Nancy Smith never arrived at work on time from July
7, 2014 through June 30, 2015. During that period she
typically arrived more than one hour late. Loveless
never issued any type of discipline or warning to Nancy
Smith. Nancy Smith is white.(Doc. 35-14 at 82).
Deborah Walker was another employee who Loveless concluded had “some tardies.” (35-14 at 73). Loveless never disciplined Walker.
Loveless reviewed the time sheets for Towns and
Nancy Smith throughout the 2014-2015 school year.
He can recall no reason why he did not issue some type

App. 51
of warning or disciplinary action to those two women.
(35-14 at 81-82).
Loveless never told Hanson about the tardiness issues related to Nancy Smith, Walker, Towns, or Hicks.
Hanson was not concerned about Nancy Smith’s failure to arrive on time for an entire school year because
of the “time that’s put in.”
In light of Plaintiff ’s habitual tardiness, and the
resulting problems it caused, Loveless recommended
that Plaintiff ’s employment not continue after the
2014-15 school year. Since Plaintiff was terminated,
VBE has not hired a single African-American secretary, bookkeeper or attendance keeper at VHS. Loveless did not remember who he placed in Plaintiff ’s
position after Plaintiff was terminated. VBE posted
Plaintiff ’s position and then officially selected Hicks to
replace Smith, effective June 9, 2015.16 No one replaced
Hicks after she replaced Plaintiff.
Loveless and Hanson met with all of the VHHS
employees who Loveless planned to recommend that
their employment not continue after the 2014-15
school year on May 19, 2015. Of that group, VHHS employees other than Plaintiff either gave them their resignation letters during the meeting or turned in
resignation letters later, such that they were listed under the “resigned” column in the May 20, 2015, Board
meeting minutes. Neither Loveless nor Hanson told
the other VHHS employees that they could resign so it
16

On June 9, 2015, Hicks resigned from her 187-day clerical
position effective May 22, 2015. (Doc. 44-13 at 2; doc. 44-14 at 2).

App. 52
would not show as a termination. During that meeting,
Plaintiff did not ask Loveless or Hanson if she could
resign or retire instead of having her employment terminated.
A Board employee is responsible for advising her
administrator of her intent to retire, by submitting a
letter stating that she intends to retire, and submitting
all paperwork to the Teachers’ Retirement System.
Plaintiff did not turn in a letter of resignation to Loveless prior to the May 20, 2015, Board meeting, when
Loveless’s recommendation was voted on by the
Board.17 Because Plaintiff did not advise Loveless that
she intended to retire, the Board did not have the
proper notice prior to the meeting that Plaintiff intended to retire when it voted on the superintendent’s
recommendation for termination. If Plaintiff had provided a letter of intent to retire before the May 20
meeting, her name would have been included in the list
of names of individuals who were retiring from their
employment with the Board.
E. Hiring Decisions After Plaintiff ’s May
2015 Termination
Open positions with the Board are posted, both
online and at schools (and the central office), and applications are accepted through the Alabama Department
17

While Plaintiff ’s personnel file shows that she completed
some of the paperwork required by the Teachers’ Retirement system on May 19, 2015, Plaintiff failed to provide written notice to
the Board via a letter advising of her intent to retire.

App. 53
of Education’s “Teach in Alabama” online program. No
Board policy dictates how an administrator is to select
applicants to be interviewed for non-certified positions
or which applicant to recommend for employment.
Applications for both the secretary/registrar position formerly held by Plaintiff, and the college counseling secretarial position, were accepted from one May
2015 posting, from which the Board hired two secretaries-Hicks and Jerri Tinney (“Tinney”) (white female).
Hicks was the best qualified applicant for the front
desk secretary/registrar position at VHHS based on
her prior work experience in the school office and her
interview. (Doc. 35-23 at 2-3). Hicks and Tinney were
over the age of forty at the time they were hired. When
the secretary/registrar position at VHHS was posted,
Burgess did not know Plaintiff, and Plaintiff had not
yet filed her initial EEOC charge of discrimination.
There were 57 applicants for the 12 month
bookkeeper position at VHHS, and Burgess interviewed four applicants for the position. Lisa Greer,
who had been employed at VHHS as a 10 month
bookkeeper and who had taken on extra duties while
Plaintiff was sick, was the best qualified applicant for
the position and was over 40 years old when she was
hired.
When the 10 month bookkeeper position at VHHS
was posted in January 2016, Burgess was still not
aware that Plaintiff had filed her initial EEOC charge
of discrimination. There were 49 applicants for the
10 month bookkeeper position at VHHS, and Burgess

App. 54
interviewed four applicants for the position. Plaintiff
was one of the applicants. (Doc. 35-23 at 5). Based on
her then-current employment with the Mountain
Brook school system as a school bookkeeper, Amy
Schmidt, who is white, was the best qualified applicant
for the position.
When the secretary/registrar position at Vestavia
Hills Elementary East (“VHEE”) was posted in February 2016, Dr. Mark Richardson, principal of VHEE,
was not aware that Plaintiff had filed her initial EEOC
charge of discrimination. There were 113 applicants
for the secretary/registrar position at VHEE, and Richardson interviewed eight applicants for the position.
Felicia Johnson, who is African American, applied for
this position. She had an accounting degree and years
of bookkeeping experience. Based on her excellent people skills and her experience managing large data bases, Johnson was the best qualified applicant for the
position. Johnson is white. She was born in 1978.
Richardson was over forty years old at the time of
the 2016 hiring recommendation. Phillips was over the
age of forty at the time of her endorsement of the recommendations to the Board to hire Schmidt and Johnson.
V.

SUMMARY JUDGMENT ANALYSIS

As noted above, Plaintiff ’s Amended Complaint, to
the extent neither dismissed by the Court’s prior orders, nor abandoned at summary judgment, asserts
three cause of action: Count One–racial discrimination

App. 55
brought under Title VII, 42 U.S.C. § 1981, 42 U.S.C.
§ 1981(a) and 42 U.S.C. § 1983; Count Two–age discrimination brought pursuant to the Age Discrimination in Employment Act of 1967, 29 U.S.C. § 621, et seq.
(the “ADEA”) and Count Three–retaliation pursuant to
Title VII, the ADEA, and § 1981. Defendant has sought
summary judgment as to all claims, asserting that
Plaintiff cannot establish a prima facie case of race or
age discrimination, either by Defendant’s termination
of her employment or by its selecting, post termination,
other applicants for open positions. Defendant alternatively asserts that Defendant’s actions were taken
based on legitimate, non-discriminatory reasons. Defendant also asserts that Plaintiff cannot establish a
prima facie case of retaliation because she cannot show
that she suffered any adverse employment action as a
result of any protected activity. Finally, Defendant argues that Plaintiff has abandoned any hostile work environment claim.
A. Abandoned Claims
As stated above Defendant has moved for summary judgment as to all of Plaintiff ’s claims. In response, Plaintiff does not discuss her hostile work
environment claim at all. Accordingly, the Court considers this claim to be abandoned. See, Brackin v. Anson, 585 F. App’x 991, 994 (11th Cir. 2014) (“The parties
bear the burden of formulating arguments before the
district court, and ‘grounds alleged in the complaint
but not relied upon in summary judgment are deemed
abandoned’ and will not be considered on appeal.”)

App. 56
(quoting Resolution Trust Corp. v. Dunmar Corp., 43
F.3d 587, 599 (11th Cir.1995)). Summary judgment
will be granted as to Plaintiff ’s claim that she was subjected to a hostile work environment.18
B. Employment Discrimination Claims
The parties initially dispute whether Plaintiff ’s
employment discrimination claims are to be analyzed
as single-motive or mixed-motive claims. Defendant
says they are single-motive claims based on circumstantial evidence. The Court agrees. The Court also
agrees that, while it looks to all of the evidence, here it
is appropriate to analyze Plaintiff ’s claims under the
familiar McDonnell-Douglas framework.19 This is so
because Plaintiff has failed to present any evidence of
discriminatory animus other than that contemplated
18

Count One of the Amended Complaint could be fairly read
as containing only a race discrimination claim based on Plaintiff
being subjected to a hostile work environment. (See doc. 21 at 20,
¶61 (“Plaintiff was required to work in a racially hostile environment”), at 22-23, ¶71 (“VBOE subjected Plaintiff to a racially hostile environment, including singling her out by ostracizing her,
ignoring her, excluding her from secretarial meetings, denying
her breaks and time to eat lunch, condoning racially offensive conduct by others and defending the use of Confederate symbols”),
¶72 (“Plaintiff ’s racially hostile work environment caused her
great distress, humiliation[,] and embarrassment”). While Count
One discusses Plaintiff ’s termination (see doc. 21 at 23, ¶73), it
explains that she was terminated in retaliation for her “complaints about a hostile work environment.” That claim is therefore
encompassed in Count Three. However, because the parties have
treated Count One as containing a separate disparate treatment
claim, the Court has also.
19
McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973).

App. 57
by that framework. Specifically, Plaintiff ’s prima facie
case rests on the following.
Smith belongs to a racial minority, AfricanAmerican; she was subjected to an adverse job
action (termination); she was qualified for her
job; she was replaced by Hicks, a white
woman; and other white employees who engaged in the same or similar conduct [tardiness] were not terminated.
(Doc. 68 at 28).20
Despite Plaintiff ’s assertions that the 1991
amendments to Title VII have somehow called into
question “the continuing validity of the McDonnell
Douglas paradigm for assessing evidence” (doc. 68 at
27), that framework is indeed appropriately applied to
her discrimination claims based on the evidence presented in this case. See Smith v. Lockheed-Martin
Corp., 644 F.3d 1321, 1328 (11th Cir. 2011), citing
Burke–Fowler v. Orange County, Fla., 447 F.3d 1319,
1325 (11th Cir.2006) for the proposition that the
Burke-Fowler court “affirm[ed] the district court’s
grant of summary judgment because plaintiff ‘failed to
establish valid comparators and presented no other circumstantial evidence suggesting racial discrimination’ ” (emphasis added in Smith v. Lockheed-Martin));
see also, Young v. United Parcel Serv., Inc., 135 S. Ct.
1338, 1354, 191 L. Ed. 2d 279 (2015) (application of
20

In other words, despite challenging the validity of the
McDonnell Douglas framework, Plaintiff then relies on that
framework to show that she has established a legally sufficient
prima facie case.

App. 58
McDonnell Douglas framework extended to “an individual pregnant worker who seeks to show disparate
treatment through indirect evidence”).
The Eleventh Circuit has noted:
Title VII of the Civil Rights Act of 1964 makes it
unlawful for an employer to discharge or otherwise discriminate against an employee because of
his race. 42 U.S.C. § 2000e–2(a)(1). Similarly, 42
U.S.C. § 1981 prohibits race discrimination in employment by providing that all persons shall have
the same right to make and enforce contracts as
white citizens. 42 U.S.C. § 1981(a). In the employment context, the elements of a race-discrimination claim under § 1981 are the same as those in a
Title VII disparate-treatment claim. Rice–Lamar
v. City of Fort Lauderdale, 232 F.3d 836, 843 n. 11
(11th Cir. 2000).
The ADEA, in turn, makes it unlawful for an employer to discharge or otherwise discriminate
against an employee because of his age. 29 U.S.C.
§ 623(a)(1). Specifically, the ADEA prohibits employment discrimination against individuals who
are at least 40 years of age. Id. § 631(a).
Where, as here, a plaintiff puts forth only circumstantial evidence in support of [her] discrimination claims, we generally apply the burdenshifting framework of McDonnell Douglas Corp. v.
Green, 411 U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d 668
(1973). EEOC v. Joe’s Stone Crabs, Inc., 296 F.3d
1265, 1272 (11th Cir. 2002); see Sims v. MVM, Inc.,
704 F.3d 1327, 1332–33 (11th Cir. 2013) (ADEA);

App. 59
Smith v. Lockheed–Martin, 644 F.3d 1321, 1325 &
n. 14 (11th Cir. 2011) (Title VII and § 1981).
Under this framework, the plaintiff bears the initial burden of establishing a prima facie case of
discrimination. Joe’s Stone Crabs, Inc., 296 F.3d at
1272. If the plaintiff establishes a prima facie case,
he creates a rebuttable presumption that the employer unlawfully discriminated against him. Id.
The burden then shifts to the employer to articulate a legitimate, nondiscriminatory reason for the
challenged employment action. Id. If the employer
satisfies this burden of production, the burden
shifts back to the plaintiff to demonstrate that the
proffered reason is merely a pretext for unlawful
discrimination. Id. at 1272–73. Although the burden of production shifts back and forth, the ultimate burden of persuasion always remains with
the plaintiff. Id. at 1273.
Benjamin v. SNF Holding Co., 602 Fed.Appx. 758, 761–
62 (11th Cir. 2015).
Under the McDonnell Douglas framework, to
prevail on a claim of failure to promote, a
plaintiff may establish a prima facie case of
[race] discrimination by showing that: (1) she
is a member of a protected class; (2) she was
qualified and applied for the promotion; (3)
she was rejected despite her qualifications;
and (4) other equally or less qualified employees who were not members of the protected
class were promoted.
Wilson v. B/E Aerospace, Inc., 376 F.3d 1079, 1089 (11th
Cir. 2004).

App. 60
To establish a prima facie case under the
ADEA, the plaintiff bears the burden of proving that (1) [s]he was a member of the protected class (i.e., at least 40 years old at the
time of the adverse employment action); (2)
[s]he was subject to an adverse employment
decision; (3) the position [s]he sought was
filled by a substantially younger person; and
(4) [s]he was qualified for the position. See
Chapman v. AI Transp., 229 F.3d 1012, 1043
(11th Cir. 2000) (en banc). Age discrimination
claims also require that the plaintiff ultimately show that [her] age was the “but-for”
cause of the adverse employment decision. See
Gross v. FBL Fin. Servs., Inc., 557 U.S. 167,
177, 129 S.Ct. 2343, 174 L.Ed.2d 119 (2009).
Suarez v. Sch. Bd. of Hillsborough Cty., Fla., 638
Fed.Appx. 897, 899 (11th Cir. 2016).
Accordingly, Plaintiff ’s assertions to the contrary
notwithstanding (doc. 27 at pp. 26-28), she has the burden to establish a prima facie case of discrimination by
presenting evidence that (1) she is a member of a protected class (race or age over 40); (2) she was qualified
for the position (that she was terminated from or that
she applied for); (3) she was terminated or rejected despite her qualifications; and (4) other equally or less
qualified employees who were not members of the protected class were not subjected to the adverse action
(that is, were not terminated or, as to open positions
that Plaintiff applied for, were hired).

App. 61
C. Termination of Employment Based on
Race
Defendant seeks summary judgment as to Count
One initially on the basis that Plaintiff has failed to
show the required fourth element: “that [Defendant]
treated similarly situated employees outside of her African American classification more favorably.” (Doc. 35
at 26).21
Defendant has argued, and offered unrebutted
sworn evidence, that Plaintiff and Connie Thomas
were the only employees whose positions had to be
physically occupied (“covered”) at all times during
their working hours.22 Similarly unrebutted by Plaintiff are Defendant’s arguments and evidence that Connie Thomas was not excessively tardy.
Plaintiff totally ignores this argument and fails to
dispute these facts.23 Whether this is because she cannot refute them or whether this is because she believes
21

Defendant concedes that Plaintiff has shown the first three
elements.
22
In the portion of her response brief in which Plaintiff admits or disputes Defendant’s statement of facts, Plaintiff states
that Defendant’s fact numbered 22 is “Undisputed.” (Doc. 68 at p.
4). Defendant’s fact numbered 22 states: “The two front desks,
which included Plaintiff ’s desk and Ms. [Connie] Thomas’[s] desk,
needed to be covered at all times.” Plaintiff points to no evidence
that the desks assigned to any of the employees she does discuss
in her brief similarly needed to be covered at all times, or refuting
Defendant’s assertions that, when Plaintiff was at lunch, other
employees “cover[ed] the plaintiff ’s desk.” (Doc. 35 at 13, #26 and
#27).
23
Plaintiff does dispute what she calls “inferences.”

App. 62
that the law of this Circuit no longer requires her to
show that a “similarly situated” employee was treated
more favorably, her failure is, on this circumstantial
evidence case, fatal.
Plaintiff never even mentions Connie Thomas in
the argument portion of her opposition brief. She fails
to point to any evidence of excessive tardiness by Connie Thomas. Also notably absent is any argument that
(much less an explanation why) Connie Thomas was
not similarly situated to Plaintiff, but the individuals
she does discuss (Anita Smith, Tracey Towns, Grace
Hicks, and Nancy Smith) are instead the appropriate
comparators. Rather, she argues that
The record in this case establishes that numerous employees were frequently tardy.
Many of the white employees where tardy
more frequently than [Plaintiff ]. But only
[Plaintiff ], the black employee, was terminated because of her tardiness. White employees, including a white employee, who rarely
arrived at work on time, and another employee who never arrived on time, not only
were not terminated, or even disciplined, but
were actually recommended for tenure.
(Doc. 68 at p. 31). However, it does not matter how Defendant treated other white employees unless those
employees were similarly situated to Plaintiff. As the
Eleventh Circuit has explained
As part of the Title VII plaintiff ’s prima facie
case, the plaintiff must show that his employer treated similarly situated employees

App. 63
outside his classification more favorably than
herself. To make a comparison of the plaintiff ’s treatment to that of non-minority employees, the plaintiff must show that he and
the employees are similarly situated in all relevant respects. In determining whether employees are similarly situated for purposes of
establishing a prima facie case, it is necessary
to consider whether the employees are involved in or accused of the same or similar
conduct and are disciplined in different ways.
If a plaintiff fails to show the existence of a
similarly situated employee, summary judgment is appropriate where no other evidence of
discrimination is present.
Holifield v. Reno, 115 F.3d 1555, 1562 (11th Cir. 1997)
(internal citations omitted) (emphasis in original).24
Plaintiff ’s inclusion of Grace Hicks, the person
who replaced Plaintiff after Plaintiff was terminated,
as a proper comparator for her wrongful termination
based on race claim, is confusing. The central issue
that a plaintiff must establish in a race discrimination
claim is that race improperly motivated the employer’s
24

Important to this analysis is the fact that Plaintiff indeed
had a proper comparator: Connie Thomas. The Court recognizes
that a “ ‘plaintiff ’s failure to produce a comparator does not necessarily doom the plaintiff ’s case.’ Smith v. Lockheed-Martin
Corp., 644 F.3d 1321, 1328 (11th Cir. 2011). Even without similarly situated comparators, ‘the plaintiff will always survive summary judgment if he [or she] presents circumstantial evidence
that creates a triable issue concerning the employer’s discriminatory intent.’ Id.” Lewis v. City of Union City, 877 F.3d 1000, 1018
(11th Cir. 2017).

App. 64
adverse action; here, Plaintiff ’s termination. But,
Grace Hicks was not hired until after Plaintiff was discharged. Accordingly, Defendant could not have had
notice of Hick’s (future) tardiness at the time that it
terminated Plaintiff. Accordingly, Grace Hicks is not a
proper comparator for purposes of Plaintiff ’s prima
face case. “Employees are not ‘similarly situated’ if
management is aware of one’s improper conduct, but
not aware of the others’ conduct.” Amos v. Tyson Foods,
Inc., 153 Fed. Appx. 637, 647 (11th Cir.2005); accord
Summers v. City of Dothan, 444 Fed.Appx. 346, 350-51
(11th Cir.2011); cf. Jones v. Gerwens, 874 F.2d 1534,
1542 (11th Cir. 1989) (for his prima facie case, the
plaintiff must show that the decision-maker “was
aware of prior [similar acts of misconduct] . . . , and
that the known violations were consciously overlooked.”)
Under the McDonnell Douglas framework, a
plaintiff must first create an inference of discrimination through her prima facie case. Vessels v. Atlanta
Ind. Sch. Sys., 408 F.3d 763, 767 (11th Cir. 2005). On
this record, Plaintiff has failed to present a prima facie
case of race discrimination as to her termination. Summary judgment will be granted to Defendant as to this
claim.
D. Failure to Hire Based on Race and/or Age
Because Plaintiff ’s race and age discrimination
claims for Defendant’s failure to hire her (after her
termination) also are founded upon circumstantial

App. 65
evidence, they too are subject to the McDonnell Douglas burden-shifting framework discussed in the prior
section of this opinion. See Trask v. Secretary, Dep’t of
Veterans Affairs, 822 F.3d 1179, 1191 (11th Cir. 2016).
That framework, in the failure-to-hire context, requires a plaintiff to establish a prima facie case by
showing: (1) she was a member of a protected class
(race and/or age); (2) she applied and was qualified for
a position for which Defendant was accepting applications; (3) despite her qualifications, she was not hired;
and (4) the position was filled by a person outside of
the plaintiff ’s protected class. Schoenfeld v. Babbitt,
168 F.3d 1257, 1267 (11th Cir. 1999) (citing Welborn v.
Reynolds Metals Co., 810 F.2d 1026, 1028 (11th
Cir.1987) (per curiam)).
Defendant assumes, arguendo, that Plaintiff can
establish her prima facie case on each of her two failure-to-hire claims.(Doc. 35 at 28). Accordingly, so does
this Court. Because a prima facie case creates an inference of discrimination, the burden is on Defendant to
show that it had legitimate race and age-neutral bases
for its hiring decisions. Defendant asserts that it has
done so, and that it is entitled to summary judgment
on the theory that Plaintiff has not presented substantial evidence of pretext. (Doc. 35 at 28-30; 34-40).
Defendant’s asserted reason for not hiring Plaintiff is that it “hired the best applicants for the registrar
position at VHEE and the 207 day bookkeeper position
at VHHS, based on the recommendations of the principals at those schools.” (Id. at 28). Plaintiff ’s relevant
argument in response is that “Phillips has testified, as

App. 66
[Defendant’s] representative, that [Plaintiff ] was more
qualified than at least one of the individuals
hired. . . . ” (Doc. 68 at 39-40).25
However, the testimony upon which Plaintiff presumably relies26 does not state what she says it does.
In the fact section of her response, Plaintiff states:
71. * * * [Dr. Sheila] Phillips admitted
that Ms. Smith was more qualified for the registrar job than Missy Johnson and that Missy
Johnson did not have the requisite experience.(35-7:215:7-23.)
(Doc. 68 at 25). The following is the full question-andanswer exchange which Plaintiff cited in that portion
of her brief:
Q. Do you think Ms. Smith had more experience as a registrar/secretary in the school
system than Missy Johnson?
A. As described in her resume versus Ms
Johnson’s application, yes.

25

Although this section of Plaintiff ’s brief deals with Plaintiff ’s retaliation claim, and not her failure-to-hire claims, it is the
only portion of that brief that even arguably joins issue with Defendant’s failure-to-hire argument. Accordingly, rather than find
these claims abandoned, the Court has considered Plaintiff ’s arguments in this section in deciding the issue of summary judgment as to these claims.
26
As Defendant points out, “Plaintiff does not provide a single evidentiary citation in support of the alleged ‘facts’ in this section of the Response.” (Doc. 78 at 12). Indeed, Plaintiff does not
even identify the position filled or the person hired.

App. 67
Q. You see on page – Plaintiff ’s Exhibit 51,
the second page, the experience that’s required is minimum of two years of experience in an administrative office,
preferably in an educational environment. Can you tell me how Missy Johnson
even met the minimum qualifications?
A. I do not know. Having not been there, I do
not know what might be absent from her
application or the interview process that
would have met those qualifications. I
don’t know that she did not articulate or
they did not confirm that she lacked the
two years of experience in an administrative office. She may have.
(Doc. 35-7 at 69(215)-70(216)). This lack of knowledge
by Phillips, who did not hire or make hiring recommendations, is not an admission by Defendant that Plaintiff in fact was more qualified than Missy Johnson.
This is particularly true in light of Plaintiff ’s failure to
dispute the following fact set out in Defendant’s initial
brief.
104. Based on her excellent people skills and
her experience managing large data bases, Missy Johnson was the best qualified applicant for the position. (Ex. I, Aff.
of Richardson).
(Doc. 35 at 24).
Although Plaintiff claims that the reason offered
by Defendant is a mere pretext for discrimination, she
fails to point to any evidence that shows a genuine

App. 68
issue of fact as to pretext. See, Ash v. Tyson Foods, Inc.,
392 F. App’x 817, 825 (11th Cir. 2010), opinion vacated
on reconsideration on other grounds, 664 F.3d 883
(11th Cir. 2011) (“The law of this circuit is that a plaintiff must make an evidentiary showing creating a
genuine issue of fact as to pretext for each of the defendant’s proffered reasons, not merely for some or
most of them.”) (citing Chapman v. AI Transp., 229
F.3d 1012, 1024-25 (11th Cir.2000)). “ ‘This evidence
must reveal ‘such weaknesses, implausibilities, inconsistencies, incoherencies or contradictions in the employer’s proffered legitimate reasons for its actions
that a reasonable factfinder could find them unworthy
of credence.’ ” Vessels v. Atlanta Indep. Sch. Sys., 408
F.3d 763, 771 (11th Cir. 2005) (quoting Cooper v. Southern Co., 390 F.3d 695, 725 (11th Cir.2004)); see also,
Haugabrook v. Cason, 518 F. App’x 803, 807 (11th Cir.
2013) (same). “A proffered reason is not pretext for discrimination ‘unless it is shown both that the reason
was false, and that discrimination was the real reason.’ ” Haugabrook, 518 F. App’x at 807 (quoting
Springer v. Convergys Customer Mgmt. Grp., Inc., 509
F.3d 1344, 1349 (11th Cir.2007)).
Defendant has asserted, and supported with admissible evidence, that it had a valid business reason
to hire Missy Johnson and not Plaintiff. Plaintiff has
failed to come forward with substantial evidence of
pretext.27 At most, she has pointed to evidence that
27

As explained in footnote 25 supra, the Court stretched to
find that Plaintiff had met Defendant’s asserted non-discriminatory reason head-on as to any position at issue. The Court finds

App. 69
Plaintiff was more qualified than Missy Johnson in
some respects. This is not sufficient to establish pretext. See Cofield v. Goldkist, Inc., 267 F.3d 1264, 1268
(11th Cir. 2001) (“The relevant inquiry . . . , then, is not
to judge which employee was more qualified, but to determine whether any disparity between [Plaintiff ’s]
and [Missy Johnson’s] qualifications is so great that a
reasonable fact-finder could infer that [Defendant] did
not believe [Missy Johnson] to be better qualified.”).
Accordingly, the Court finds that Defendant is entitled
to summary judgment as to Plaintiff ’s failure-to-hire
claims.
E. Retaliation
Under Title VII of the Civil Rights Act of 1964, 78
Stat. 255, as amended, 42 U.S.C. § 2000e–3(a), it is
unlawful “for an employer to discriminate against any
of his employees . . . because [the employee] has opposed any practice made an unlawful employment
practice by [Title VII], or because [the employee] has
made a charge, testified, assisted, or participated in
any manner in an investigation, proceeding, or hearing
under [Title VII].” Like her discrimination claims,
Plaintiff ’s retaliation claims are based solely on circumstantial evidence. Thus, they also properly are analyzed under the McDonnell Douglas framework.
Thomas v. CVS/Pharmacy, 336 F. App’x 913, 915 (11th
that Plaintiff has totally abandoned any failure-to-hire claim as
to any position other than the one for which Missy Johnson was
hired.

App. 70
Cir. 2009) (“As with substantive discrimination claims,
a retaliation claim based on circumstantial evidence
is analyzed according to the McDonnell Douglas
framework.” Thomas v. CVS/Pharmacy, 336 F. App’x
913, 915 (11th Cir. 2009); see also Farley v. Nationwide
Mut. Ins. Co., 197 F.3d 1322, 1336 (11th Cir.1999) (applying McDonnell Douglas-type analysis to retaliation
claims).
Plaintiff bears the initial burden of establishing a
prima facie case of retaliation, which he may do by
“presenting evidence showing that (1) [s]he engaged in
statutorily protected conduct, (2) the employer took action that would have been materially adverse to a reasonable employee, and (3) there is a causal connection
between the protected conduct and the adverse employment action.” Walker v. Sec’y, U.S. Dep’t of Air
Force, 518 F. App’x 626, 627-28 (11th Cir. 2013) (internal citations omitted).
To establish this causal connection as required for
a prima facie case,
“a plaintiff must show that the decisionmakers were aware of the protected conduct,
and that the protected activity and the adverse actions were not wholly unrelated.”
Causation may be inferred by close temporal
proximity between the protected conduct and
the materially adverse action taken by the
employer. We have held, however, that “in the
absence of other evidence tending to show
causation,” a three-to-four month time gap between the protected conduct and the adverse

App. 71
employment action is insufficient to establish
causation on its own.
(Id. at 628) (internal citations omitted).
Defendant asserts that “Plaintiff makes two
claims of retaliation.” (Doc. 35 at 42). The Court addresses each in turn.
1. Retaliatory Termination
Defendant states that the first retaliation Plaintiff
alleges “occurred when her employment was terminated at the end of the 2014-15 school year, after she
verbally and informally commented to Loveless and
Hanson about feeling mistreated by her co-workers.”
(Id.). As described by Defendant, Plaintiff “claims she
was retaliated against when her employment was terminated and her name listed on the Board meeting
minutes under the “terminated” column, instead of the
“retired” or “resigned” columns of names.” (Id. at 44).
Defendant then argues that
the Board had legitimate, nondiscriminatory
reasons for terminating the plaintiff ’s employment in May 2015. Further, the plaintiff
did not ask to resign or retire in lieu of termination and she did not submit a letter of resignation or a letter of retirement to the Board.
(Ex. E, p. 99, l. 18-22; Ex. H; Ex. K). While she
completed the retirement paperwork for the
Teachers’ Retirement System, she did not submit the letter of resignation to the Board or
notify Mr. Loveless of her intent to retire. (Ex.
H; Ex. K). The other VHHS employees who

App. 72
were listed in the May 20, 2015 Board meeting minutes as retired or resigned submitted
a letter of intent to retire or letter of resignation. (Ex. E, p. 99, l. 23- p. 100, l. 4; Ex. F, p.
139, l. 19- p. 141, l. 11; p. 143, l. 15-21). Despite
plaintiff ’s inclusion in the list of names of employees whose employment was “terminated,”
the plaintiff is currently employed by the Birmingham Board of Education as a school
bookkeeper. (Ex. A, p. 14, l. 3-10)
Based on the above, the plaintiff cannot
provide prima facie evidence of retaliation,
nor can she rebut each legitimate, nondiscriminatory reason for the termination of her
employment . . . with the Board to show that
each is untrue and merely a pretext for discrimination. The evidence fails to show that
each of the reasons for her termination and
listing under the appropriate heading in the
Board minutes was false and that the only
real reason was race or age discrimination.
(Id. at 44-45).
Plaintiff failed to respond at all to this aspect of
Defendant’s motion. Accordingly, any claim by Plaintiff
of retaliation arising out of her termination or her being listed as “terminated” has been abandoned. Summary judgment will be granted to Defendant as to any
such claim.

App. 73
2. Retaliatory Failure To Rehire
Defendant also seeks summary judgment as to
Plaintiff ’s claims that “the Board retaliated against
her again when she was not interviewed or hired for
two open positions for which she applied in 2016 after
she filed her EEOC charge of race and age discrimination on August 26, 2015.” (Doc. 35 at 42-43). Defendant
points out that the dates when the alleged retaliatory
acts of not re-hiring Plaintiff occurred in January and
February 2016, that is, “five and six months after the
filing of the EEOC charge.” (Id.). The Court agrees that
such a time lapse, “without more,” is too great to show
retaliation. (See id.).
Rather than meet this argument head-on, Plaintiff
neither argues that the time lapse is not too great nor
points to something “more” than temporal proximity.
She says she “has filed numerous applications seeking
to be reemployed by VBE. Despite her superior qualifications for a number of these positions, as admitted by
Phillips, [ ] Smith has never even been interviewed for
the jobs and the jobs have been awarded to less qualified individuals.” (Doc. 68 at 38). She also argues
The mere fact that a VBE supervisor can
offer some explanation for who he hired out of
the limited pool of interviewed applicants
does not rebut Ms. Smith’s evidence that she
was wrongfully excluded from the pool of
qualified applicants in the first place. Phillips
has testified, as VBE’s representative, that
Ms. Smith was more qualified than at least
one of the individuals hired by VBE. There is

App. 74
no question but Ms. Smith applied for that job
and was not interviewed. VBE has not offered
any explanation as to why Ms. Smith was not
even granted an interview for that position.
This evidence, along with the fact that Ms.
Smith’s claim of discrimination was widely
discussed with VBE’s administration, is sufficient to survive summary judgment on Ms.
Smith’s retaliation claim.
(Id. at 38-39).
The Court initially notes that, as to this argument,
Plaintiff cites no authority. She does not cite to any evidence. She does not cite to any case that she argues
shows that the type of evidence she posits is sufficient
to be the “something more” that she needs to proffer as
a prima facie case of retaliation. Indeed, she does not
even identify which position she was not hired for
based on retaliation.
It appears that Plaintiff is arguing that a prima
facie case of retaliatory failure to rehire is shown
whenever a former employee is not rehired after filing
a charge of discrimination, no matter how much time
elapses between the filing of the charge and the event
of not interviewing or rehiring that former employee,
and despite a failure to show that Defendant’s explanations for hiring other individuals are pretextual.
However, as explained in the Court’s analysis of
Plaintiff ’s discrimination claim based on her not being
rehired,

App. 75
[t]he Defendant has asserted, and supported
with admissible evidence, that it had a valid
business reason to hire Missy Johnson and
not the Plaintiff. The Plaintiff has failed to
come forward with substantial evidence of
pretext.28 At most, she has pointed to evidence
that the Plaintiff was more qualified than
Missy Johnson in some respects. This is not
sufficient to establish pretext. See Cofield v.
Goldkist, Inc., 267 F.3d 1264, 1268 (11th Cir.
2001) (“The relevant inquiry . . . , then, is not
to judge which employee was more qualified,
but to determine whether any disparity between [Plaintiff ’s] and [Missy Johnson’s]
qualifications is so great that a reasonable
fact-finder could infer that [Defendant] did
not believe [Missy Johnson] to be better qualified.”) Accordingly, the Court finds that Defendant is entitled to summary judgment as
to Plaintiff ’s failure-to-hire claims.
(Supra, pages 55-56).
Consistent with this analysis, and absent any onpoint evidentiary or legal citation by Plaintiff in opposing summary judgment as to this claim, the Court will
grant summary judgment to Defendant as to Plaintiff ’s retaliation claims.

28

As explained in footnote 16 supra, the Court stretched to
find that Plaintiff had met Defendant’s asserted non-discriminatory reason head-on as to any position at issue. The Court finds
that Plaintiff has totally abandoned any failure-to-hire claim as
to any position other than the one for which Missy Johnson was
hired.

App. 76
VI. CONCLUSION
Based on the foregoing, and to the extent noted,
the various motions to strike by the parties will be
GRANTED or DENIED as set out above. Furthermore, the Defendant’s Motion for Summary Judgment
will be GRANTED, and this case will be DISMISSED
with prejudice. A Final Order will be entered.
DONE and ORDERED this 21st day of March,
2018.
/s/ V E Hopkins
VIRGINIA EMERSON
HOPKINS
United States District Judge

App. 77
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-11626-EE
-----------------------------------------------------------------------

ANITA SMITH,
Plaintiff - Appellant,
versus
VESTAVIA HILLS BOARD OF EDUCATION,
Defendant - Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Alabama
-----------------------------------------------------------------------

ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
(Filed Jan. 22, 2020)
BEFORE: MARCUS, JULIE CARNES and KELLY,*
Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having requested that the Court be polled on rehearing en banc.
* Honorable Paul J. Kelly, Jr., United States Circuit Judge
for the Tenth Circuit, sitting by designation.

App. 78
(FRAP 35) The Petition for Panel Rehearing is also denied. (FRAP 40)
ORD-46

